C"?­
 <S~
          DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                                Office of Inspector General


                                                                                  Washington. D.C. 	 20201


                                              JAN 0 3 2011


  TO: 	             Marilyn Tavenner
                    Acting Administrator
                    Centers for Medicare & Medicaid Services

                                   /S/
  FROM:             stuart Wrigtit
                    Deputy Inspector General
                       for Evaluation and Inspections


  SUBJECT: 	 Memorandum Report: Comparison ofSecond-Quarter 2011 Average Sales
             Prices and Average Manufacturer Prices: Impact on Medicare Reimbursement
             for Fourth Quarter 2011 , OEI-03-12-00020


  This review was conducted in accordance with the statutory mandate for the Office of Inspector
  General (OIG) to identify Medicare Part B prescription drugs with average sales prices (ASP)
  that exceed average manufacturer prices (AMP) by at least 5 percent. This review estimated the
  fmancial impact of lowering reimbursement amounts for drugs that met the 5-percent threshold
  to 103 percent of the AMPs, and also examined the potential effect of a November 2011 final
  rule that, among other things, specifies the circumstances under which the Centers for Medicare
  & Medicaid Services (CMS) will make AMP-based price substitutions beginning in 2012.

  SUMMARY

  Since the implementation of the ASP reimbursement methodology in 2005, OIG has issued
  24 reports comparing ASPs with AMPs. This latest comparison examines drugs that exceeded
  the 5-percent threshold based on either complete or partial AMP data in the second quarter of
  2011. Of the 367 drug codes with complete AMP data, 26 exceeded the 5-percent threshold. If
  reimbursement amounts for all 26 codes had been based on 103 percent of the AMPs in the
  fourth quarter of2011, Medicare would have saved an estimated $15.8 million in that quarter
  alone. Under CMS ' s price substitution policy, reimbursement amounts for 7 of the 26 drugs
  would have heen reduced, saving an estimated $696,000 in the quarter. Of the 68 drug codes
  with partial AMP data, 14 exceeded the 5-percent threshold. CMS has expressed concem that
  partial AMP data may not adequately reflect market trends and therefore will not apply its price
  substitution policy to drugs with partial AMP data. However, we found that pricing comparisons
  for half of the 14 codes with partial AMP data seemed to accurately capture market trends; price
  reductions may be appropriate in these cases. We could not perform pricing comparisons for an
  additional 49 drug codes because none of the associated drug products had corresponding AMP
  data. Manufacturers for 8 percent of those drug products had Medicaid drug rebate agreements
  and were therefore generally required to submit AMPs.



  OEI-03-12-00020          Comparison of Second-Quarter 2011 ASPs and AMPs
Page 2 – Marilyn Tavenner


BACKGROUND

The Social Security Act (the Act) mandates that OIG compare ASPs to AMPs. 1 If OIG finds
that the ASP for a drug exceeds the AMP by a certain percentage (currently 5 percent), the Act
states that the Secretary of Health and Human Services (the Secretary) may disregard the ASP
for the drug when setting reimbursement amounts. 2, 3 The Act further states that “… the
Inspector General shall inform the Secretary (at such times as the Secretary may specify to carry
out this subparagraph) and the Secretary shall, effective as of the next quarter, substitute for the
amount of payment … the lesser of (i) the widely available market price … (if any); or (ii) 103
percent of the average manufacturer price….” 4

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered drugs
include injectable drugs administered by a physician; certain self-administered drugs, such as
oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with durable
medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies, known as Medicare Administrative Contractors (MAC),
to process and pay Medicare Part B claims, including those for prescription drugs. To obtain
reimbursement for covered outpatient prescription drugs, health care providers submit claims to
their MACs using procedure codes. CMS established the Healthcare Common Procedure
Coding System (HCPCS) to provide a standardized coding system for describing the specific
items and services provided in the delivery of health care. In the case of prescription drugs, each
HCPCS code defines the drug name and the amount of the drug represented by the HCPCS code
but does not specify manufacturer or package size information.

Medicare and its beneficiaries spent almost $12 billion for Part B drugs in 2010. 5 Although
Medicare paid for more than 600 outpatient prescription drug HCPCS codes that year, most of
the spending for Part B drugs was concentrated on a relatively small subset of those codes. In
2010, 61 HCPCS codes accounted for 90 percent of the expenditures for Part B drugs, with only
12 of these codes representing the majority of total Part B drug expenditures.

Reimbursement Methodology for Part B Drugs and Biologicals
Medicare Part B pays for most covered drugs using a reimbursement methodology based on
ASPs. 6 As defined by law, an ASP is a manufacturer’s sales of a drug to all purchasers in the

1
  Section 1847A(d)(2)(B) of the Act.
2
  Section 1847A(d)(3)(A) of the Act.
3
  Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the applicable threshold
percentage in 2006 and subsequent years; however, the threshold percentage has been maintained at 5 percent.
4
  Section 1847A(d)(3)(C) of the Act.
5
  Medicare expenditures for Part B drugs in 2010 were calculated using CMS’s Part B Analytics and Reports
(PBAR). The PBAR data for 2010 were 98-percent complete when the data were downloaded in April 2011.
6
  Several Part B drugs, including certain vaccines and blood products, are not paid for under the ASP methodology.

OEI-03-12-00020           Comparison of Second-Quarter 2011 ASPs and AMPs
Page 3 – Marilyn Tavenner


United States in a calendar quarter divided by the total number of units of the drug sold by the
manufacturer in that same quarter. 7 The ASP is net of any price concessions, such as volume
discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
requirements, chargebacks, and rebates other than those obtained through the Medicaid drug
rebate program. 8 Sales that are nominal in amount are exempted from the ASP calculation, as
are sales excluded from the determination of “best price” in Medicaid’s drug rebate program. 9, 10

Manufacturers that participate in the Medicaid drug rebate program must provide CMS with the
ASP and volume of sales for each of their national drug codes (NDC) on a quarterly basis, with
submissions due 30 days after the close of each quarter. 11 An NDC is an 11-digit identifier that
represents a specific manufacturer, product, and package size.

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes rather
than NDCs and more than one NDC may meet the definition of a particular HCPCS code, CMS
has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
information in this crosswalk file to calculate volume-weighted ASPs for covered HCPCS codes.

Calculation of Volume-Weighted ASPs
Fourth-quarter 2011 Medicare payments for most covered drug codes were based on
second-quarter 2011 ASP submissions from manufacturers, which were volume-weighted using
an equation that involves the following variables: the ASP for the 11-digit NDC as reported by
the manufacturer, the volume of sales for the NDC as reported by the manufacturer, and the
number of billing units in the NDC as determined by CMS. 12 The amount of the drug contained
in an NDC may differ from the amount of the drug specified by the HCPCS code that providers
use to bill Medicare. Therefore, the number of billing units in an NDC describes the number of
HCPCS code units that are in that NDC. For instance, an NDC may contain 10 milliliters of
Drug A, but the corresponding HCPCS code may be defined as only 5 milliliters of Drug A. In
this case, there are two billing units in the NDC. CMS calculates the number of billing units in
each NDC when developing its crosswalk files.

Under the ASP pricing methodology, the Medicare allowance for most Part B drugs is equal to
106 percent of the volume-weighted ASP for the HCPCS code. Medicare beneficiaries are
generally responsible for 20 percent of this amount in the form of coinsurance.

7
  Section 1847A(c) of the Act, as added by the Medicare Prescription Drug, Improvement, and Modernization Act of
2003, P.L. 108-173.
8
  Section 1847A(c)(3) of the Act.
9
  Section 1847A(c)(2) of the Act.
10
   Pursuant to § 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the manufacturer during
the rebate period to any wholesaler, retailer, provider, health maintenance organization, nonprofit entity, or
governmental entity within the United States, with certain exceptions.
11
   Section 1927(b)(3) of the Act.
12
   The equation that CMS currently uses to calculate volume-weighted ASPs is described in § 1847A(b)(6) of the
Act. It is also provided in Appendix A.


OEI-03-12-00020           Comparison of Second-Quarter 2011 ASPs and AMPs
Page 4 – Marilyn Tavenner


The Medicaid Drug Rebate Program and AMPs
For Federal payment to be available for covered outpatient drugs provided under Medicaid, the
Act mandates that drug manufacturers enter into rebate agreements with the Secretary and pay
quarterly rebates to State Medicaid agencies. 13 Under these rebate agreements and pursuant to
the Act, manufacturers must provide CMS with the AMPs for each of their NDCs. 14 As further
explained in regulation, manufacturers are required to submit AMPs within 30 days after the end
of each quarter. 15

The AMP is generally calculated as a weighted average of prices for all of a manufacturer’s
package sizes of a drug and is reported for the lowest identifiable quantity of the drug (e.g.,
1 milliliter, one tablet, one capsule). Effective October 2010, the Patient Protection and
Affordable Care Act (Affordable Care Act) revised the definition of AMP to be the average price
paid to the manufacturer for the drug in the United States by (1) wholesalers for drugs distributed
to retail community pharmacies and (2) retail community pharmacies that purchase drugs
directly from the manufacturer. 16, 17, 18

Penalties for Failure To Report Timely Drug Pricing Data
Pursuant to the Act, manufacturers that fail to provide ASP and AMP data on a timely basis may
be subject to civil money penalties and/or termination from the drug rebate program. 19, 20
Accordingly, CMS has terminated rebate agreements with a number of manufacturers for failure
to report AMPs and, for the purposes of evaluating potential civil money penalties, has referred
to OIG manufacturers that failed to submit timely ASPs and AMPs. In accordance with an
enforcement initiative announced in September 2010, OIG has begun imposing civil money
penalties on certain manufacturers that fail to report timely ASPs and/or AMPs. 21

OIG’s Monitoring of ASPs and AMPs
To comply with its statutory mandate, OIG has issued 20 quarterly pricing comparisons since the
ASP reimbursement methodology for Part B drugs was implemented in January 2005. In


13
   Sections 1927(a)(1) and (b)(1) of the Act.
14
   Section 1927(b)(3) of the Act.
15
   42 CFR § 447.510.
16
   Section 1927(k)(1) of the Act, as amended by § 2503 of the Affordable Care Act, P.L. 111-148.
17
   Pursuant to § 1927(k)(10) of the Act, “retail community pharmacy” means an independent, chain, supermarket, or
mass merchandiser pharmacy that is licensed as a pharmacy by the State and that dispenses medications to the
general public at retail prices. Such term does not include a pharmacy that dispenses prescription medications to
patients primarily through the mail; nursing home, long-term-care, or hospital pharmacies; clinics; charitable or
not-for-profit pharmacies; government pharmacies; or pharmacy benefit managers.
18
   Prior to October 2010, the AMP was generally defined by statute to be the average price paid to the manufacturer
for the drug in the United States by wholesalers for drugs distributed to the retail pharmacy class of trade.
19
   Sections 1927(b)(3)(C)(i) and (4)(B)(i) of the Act.
20
   The Secretary delegated to OIG the responsibility to impose civil money penalties for violations of
§ 1927(b)(3)(C) of the Act in 59 Fed. Reg. 52967 (Oct. 20, 1994).
21
   OIG, Special Advisory Bulletin: Average Manufacturer Price and Average Sales Price Reporting Requirements,
September 2010. Available online at http://www.oig.hhs.gov.

OEI-03-12-00020           Comparison of Second-Quarter 2011 ASPs and AMPs
Page 5 – Marilyn Tavenner


addition, OIG has completed four annual overviews of ASPs and AMPs, which examined data
across all four quarters of 2007, 2008, 2009, and 2010, respectively.

OIG has consistently recommended that CMS develop a price substitution policy and
subsequently lower reimbursement for drugs that exceed the 5-percent threshold as directed by
the Act. Although CMS has yet to make any changes to Part B drug reimbursement as a result of
OIG’s studies, the agency published a final rule in November 2011 that, among other things,
specifies the circumstances under which AMP-based price substitutions would occur. 22

CMS’s Price Substitution Policy
Effective January 2012, CMS will substitute 103 percent of the AMP for the ASP-based
reimbursement amount when OIG identifies a HCPCS code that meets the 5-percent threshold in
two consecutive quarters or three of four quarters. 23, 24 Because CMS believes that comparisons
based on partial AMP data may not adequately reflect market trends, the agency will lower
reimbursement amounts only when ASP and AMP comparisons are based on the same set of
NDCs (i.e., based on complete AMP data). HCPCS codes that meet the 5-percent threshold
based on partial AMP data will not be eligible for price substitution.

In general, price substitutions will take effect in the quarter after OIG shares the results of its
most recent pricing comparison and remain in effect for one quarter. 25 To prevent CMS’s policy
from inadvertently raising the Medicare reimbursement amount, a price substitution will not
occur when the substituted amount is greater than the ASP-based payment amount calculated for
the quarter in which the price substitution would take effect. 26

METHODOLOGY

We obtained a file from CMS containing NDC-level ASP data from the second quarter of 2011,
which were used to establish Part B drug reimbursement for the fourth quarter of 2011. This file
also includes information that crosswalks NDCs to their corresponding HCPCS codes. Both the
ASP data and the crosswalk data were current as of September 23, 2011. We also obtained AMP
data from CMS for the second quarter of 2011, which were current as of August 15, 2011.

Analyzing ASP Data From the Second Quarter of 2011
As mentioned previously, Medicare does not base reimbursement for covered drugs on NDCs;
instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by

22
   78 Fed. Reg. 73026, 73473 (Nov. 28, 2011).
23
   Ibid.
24
   Although CMS’s final price substitution policy will become effective in January 2012, actual price substitutions
will occur no earlier than April 2012 (78 Fed. Reg. 73026, 73295 (Nov. 28, 2011)).
25
   After that one quarter, the reimbursement amount will be either 106 percent of the volume-weighted ASP for the
current quarter or, if the HCPCS code continues to meet CMS’s price substitution criteria, 103 percent of the
volume-weighted AMP for the current quarter.
26
   For example, if the AMP-based substitution amount were $5 and the ASP-based reimbursement amount were
$4 for the quarter in which the substitution would take place, CMS would not make the price substitution.

OEI-03-12-00020           Comparison of Second-Quarter 2011 ASPs and AMPs
Page 6 – Marilyn Tavenner


manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid. As of September 2011, CMS had established prices for
500 HCPCS codes based on the ASP reimbursement methodology mandated by the Act. 27
Reimbursement amounts for the 500 HCPCS codes were based on ASP data for 3,136 NDCs.

Analyzing AMP Data From the Second Quarter of 2011
To ensure that the broadest range of drug codes is subject to OIG’s pricing comparisons, we
divided HCPCS codes into the following three groups:

           (1) HCPCS codes with complete AMP data—i.e., HCPCS codes with AMP data for
               every NDC that CMS used in its calculation of volume-weighted ASPs;

           (2) HCPCS codes with partial AMP data—i.e., HCPCS codes with AMP data for only
               some of the NDCs that CMS used in its calculation of volume-weighted ASPs; and

           (3) HCPCS codes with no AMP data—i.e., HCPCS codes with no AMP data for any of
               the NDCs that CMS used in its calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity of
the drug contained in that NDC (e.g., 1 milliliter, one tablet, one capsule). In contrast, the ASP
is reported for the entire amount of the drug contained in the NDC (e.g., 50 milliliters,
100 tablets). To ensure that the AMP would be comparable to the ASP, it was necessary to
convert the AMP for each NDC so that it represented the total amount of the drug contained in
that NDC.

To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the AMP
by the total amount of the drug contained in each NDC, as identified by sources such as the CMS
crosswalk file, manufacturer Web sites, Thomson Reuters’ Red Book, and the Food and Drug
Administration’s NDC directory. 28 For certain NDCs, we were unable to identify the amount of
the drug reflected by the ASP or AMP and therefore could not calculate a converted AMP.
Because of these unsuccessful AMP conversions, 16 HCPCS codes were removed from our
analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP for
each of the corresponding HCPCS codes, consistent with CMS’s methodology for calculating
volume-weighted ASPs. When calculating the volume-weighted AMP for a HCPCS code with
partial AMP data, we excluded any NDCs without AMPs; however, we did not exclude those
NDCs from the corresponding volume-weighted ASP. This means that the volume-weighted
AMP for a HCPCS code with partial AMP data is based on fewer NDCs than the
volume-weighted ASP for that same code. Appendix B provides a more detailed description of

27
     Section 1847A(b)(6) of the Act.
28
     We did not calculate converted AMPs for NDCs in the third group because they had no AMP data.

OEI-03-12-00020             Comparison of Second-Quarter 2011 ASPs and AMPs
Page 7 – Marilyn Tavenner


the methods we used to both convert AMPs and calculate volume-weighted AMPs. Table 1
provides the final number of HCPCS codes and NDCs included in our analysis after we removed
NDCs with either no AMP data or unsuccessful AMP conversions.

Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                                 Number of          Number of
 Availability of AMP Data for HCPCS Codes
                                                                              HCPCS Codes              NDCs

 Complete AMP Data                                                                      367              1,663

 Partial AMP Data                                                                        68                637

 No AMP Data                                                                             49                221
Source: OIG analysis of second-quarter 2011 ASP and AMP data, 2011.


Comparing Second-Quarter 2011 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Complete AMP Data
For each of the 367 HCPCS codes with complete AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that exceeded the 5-percent threshold, we reviewed the associated
NDCs to verify the accuracy of the billing unit information. According to our review, two of the
HCPCS codes that exceeded the threshold based on complete AMP data were associated with
questionable billing units. Because volume-weighted ASPs and AMPs are calculated using this
billing unit information, we could not be certain that the results for these codes were correct.
Therefore, we excluded these HCPCS codes from our findings.

For each of the remaining HCPCS codes that exceeded the 5-percent threshold, we estimated the
monetary impact of lowering reimbursement to 103 percent of the AMP. 29 First, we calculated
103 percent of the volume-weighted AMP and subtracted this amount from the fourth-quarter
2011 reimbursement amount for the HCPCS code. To estimate the financial effect for the fourth
quarter of 2011, we then multiplied the difference by one-fourth of the number of services that
were allowed by Medicare for each HCPCS code in 2010, as reported in the PBAR. 30, 31

To determine which HCPCS codes would have been subject to CMS’s price substitution policy,
we identified codes with complete AMP data that met the 5-percent threshold in two consecutive
or three of four quarters. We then totaled the estimated fourth-quarter 2011 savings for that
subset of codes.


29
   Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that exceed the
5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of the
AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimate presented in this report would have been greater.
30
   The PBAR data for 2010 were 98-percent complete when the data were downloaded in April 2011.
31
   This estimate assumes that the number of services that were allowed by Medicare in 2010 remained consistent
from one quarter to the next and that there were no significant changes in utilization between 2010 and 2011.

OEI-03-12-00020            Comparison of Second-Quarter 2011 ASPs and AMPs
Page 8 – Marilyn Tavenner


Comparing Second-Quarter 2011 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Partial AMP data
For each of the 68 HCPCS codes with partial AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that exceeded the 5-percent threshold, we reviewed the associated
NDCs to verify the accuracy of the billing units. According to our review, two of the HCPCS
codes that exceeded the threshold based on partial AMP data were associated with questionable
billing units. Because volume-weighted ASPs and AMPs are calculated using this billing unit
information, we could not be certain that the results for these codes were correct. Therefore, we
excluded these HCPCS codes from our findings.

For each of the remaining HCPCS codes that exceeded the 5-percent threshold based on partial
AMP data, we determined whether missing AMPs unduly influenced the results of our pricing
comparison. As mentioned previously, the volume-weighted AMP for a HCPCS code with
partial AMP data is based on fewer NDCs than the volume-weighted ASP for that same code.
Therefore, there may be a disparity between the volume-weighted ASP and AMP that would not
exist if AMP data were available for the full set of NDCs. In other words, the volume-weighted
ASP for the HCPCS code could exceed the volume-weighted AMP by at least 5 percent only
because AMPs for certain NDCs were not represented.

CMS has expressed concern that partial AMP data may not adequately reflect market trends. 32
Therefore, to identify HCPCS codes with partial AMP data that exceeded the 5-percent threshold
only because AMP data were missing, we reanalyzed pricing data after accounting for the
missing values. Specifically, we replaced each missing AMP with its corresponding ASP and
recalculated the volume-weighted AMPs using those imputed prices. 33 We then compared those
new volume-weighted AMPs to the volume-weighted ASPs originally calculated by CMS.

If a HCPCS code no longer exceeded the 5-percent threshold, we concluded that the missing
AMPs were likely responsible for the HCPCS code initially exceeding the threshold, as opposed
to an actual disparity between ASPs and AMPs in the marketplace.

If a HCPCS code continued to exceed the 5-percent threshold, we concluded that missing AMPs
had little impact on the results of our pricing comparison. These HCPCS codes likely exceeded
the threshold as a result of actual pricing differences between ASPs and AMPs. Because price
substitutions for these HCPCS codes may be warranted, we estimated the monetary impact of
lowering reimbursement to 103 percent of the new volume-weighted AMPs. We also identified
HCPCS codes with partial AMP data that met the threshold in two consecutive or three of four
quarters and totaled the estimated fourth-quarter 2011 savings for that subset of codes.


32
  78 Fed. Reg. 73026, 73289 (Nov. 28, 2011).
33
  Although an NDC’s ASP is not usually the same as its AMP, it is generally within about 5 percent of the AMP at
the median. Therefore, we believe that ASP acts as a reasonable proxy for AMP, ensuring that the NDC is
represented in both the volume-weighted ASP and the volume-weighted AMP for the HCPCS code.

OEI-03-12-00020          Comparison of Second-Quarter 2011 ASPs and AMPs
Page 9 – Marilyn Tavenner


Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we verify
the underlying methodology used by manufacturers to calculate ASPs and AMPs. Furthermore,
we did not verify the accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
exclude from its calculation of Part B drug reimbursement amounts.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days after
the close of the quarter. Our analyses were performed on ASP and AMP data compiled by CMS
soon after that deadline. We did not determine whether manufacturers provided additional or
revised pricing data to CMS at a later date.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Of the 367 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
26 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
As mandated by the Act, OIG compared ASPs to AMPs to identify instances in which the ASP
for a particular drug exceeded the AMP by a threshold of 5 percent. In the second quarter of
2011, 26 of the 367 HCPCS codes with complete AMP data (7 percent) exceeded this 5-percent
threshold. Table 2 describes the extent to which ASPs exceeded AMPs for the 26 HCPCS codes.
For six of the codes, the volume-weighted ASP exceeded the volume-weighted AMP by more
than 20 percent. A list of all 26 HCPCS codes, including their descriptions and HCPCS dosage
amounts, is presented in Appendix C.

                   Table 2: Extent to Which ASPs Exceeded AMPs for
                       26 HCPCS Codes With Complete AMP Data
                         Percentage                          Number of Codes

                         5.00–9.99%                                          9
                         10.00–19.99%                                       11
                         20.00–29.99%                                        4
                         30.00–39.99%                                        1
                         40.00–49.99%                                        1
                         50.00–59.99%                                        0
                         60.00–69.99%                                        0
                         70.00–79.99%                                        0
                         80.00–89.99%                                        0
                         90.00–99.99%                                        0
                         100% and above                                      0
                            Total                                           26
                        Source: OIG analysis of second-quarter 2011 ASP and AMP data, 2011.

OEI-03-12-00020       Comparison of Second-Quarter 2011 ASPs and AMPs
Page 10 – Marilyn Tavenner


Pursuant to section 1847A(d)(3) of the Act, the Secretary may disregard the ASP for a drug that
exceeds the 5-percent threshold and shall substitute the payment amount with the lesser of either
the widely available market price or 103 percent of the AMP. If reimbursement amounts for all
26 codes with complete AMP data had been based on 103 percent of the AMPs during the fourth
quarter of 2011, Medicare expenditures would have been reduced by an estimated $15.8 million
in that quarter alone. 34 Three of the twenty-six HCPCS codes accounted for over 90 percent of
the $15.8 million. If the reimbursement amount for codes J7507, J7620, and J9171 had been
based on 103 percent of the AMP during the fourth quarter of 2011, we estimate that Medicare
expenditures would have been reduced by $5.1 million, $5 million, and $4.9 million,
respectively.

If CMS’s price substitution policy had been in effect, reimbursement amounts for about
one-fourth of the HCPCS codes (7 of 26) would have been reduced. These seven HCPCS codes
had complete AMP data and met the 5-percent threshold in either two consecutive quarters or
three of four quarters (see Table 3). If reimbursement amounts for the seven codes had been
based on 103 percent of the AMPs during the fourth quarter of 2011, Medicare expenditures
would have been reduced by an estimated $696,000.

     Table 3: Seven HCPCS Codes With Complete AMP Data in the Second Quarter of
             2011 That Would Have Met CMS’s Criteria for Price Substitution
                                             Previous Comparisons of ASPs and AMPs

                                           Second           First        Fourth          Third
                          HCPCS            Quarter        Quarter       Quarter        Quarter
                          Code               2011           2011           2010          2010
                          J9214                   X             X              X             X
                          J1650                   X             X              X
                          J9218                   X                            X             X
                          J0130                   X             X
                          J1205                   X             X
                          J1570                   X             X
                          J2545                   X             X
                        Source: OIG analysis of ASP and AMP data from the third quarter of 2010 through
                        the second quarter of 2011.


Of the 68 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for 14 Exceeded
the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined 68 HCPCS
codes for which only partial AMP data were available. ASPs for 14 of these 68 HCPCS codes
(21 percent) exceeded the AMPs by at least 5 percent in the second quarter of 2011. A list of the


34
  All savings estimates in this report assume that the number of services that were allowed by Medicare in 2010
remained consistent from one quarter to the next and that there were no significant changes in utilization between
2010 and 2011.

OEI-03-12-00020           Comparison of Second-Quarter 2011 ASPs and AMPs
Page 11 – Marilyn Tavenner


14 HCPCS codes, including their descriptions and HCPCS dosage amounts, is presented in
Appendix D.

For half of the HCPCS codes, missing AMPs likely had little influence on the outcome of the
pricing comparisons. Seven of the fourteen HCPCS codes with partial AMP data continued to
exceed the threshold when we accounted for missing AMPs, suggesting that the pricing
comparisons for these codes were accurately capturing underlying market trends even though
AMP data were not available for the full set of NDCs. Because missing AMPs likely had little
influence on the pricing comparison results for these seven HCPCS codes, price substitutions
may be legitimately warranted in these cases. If reimbursement amounts for the seven codes had
been based on 103 percent of the AMPs, we estimate that Medicare expenditures would have
been reduced by $354,000 during the fourth quarter of 2011. Table 4 describes the extent to
which ASPs exceeded AMPs for the seven HCPCS codes.

For the remaining seven HCPCS codes, ASPs no longer exceeded the AMPs by at least 5 percent
in the second quarter of 2011, suggesting that these codes initially exceeded the threshold
because of missing AMPs rather than a genuine pricing disparity between the ASPs and AMPs.

                   Table 4: Extent to Which ASPs Exceeded AMPs for
                      Seven HCPCS Codes With Partial AMP Data
                           Percentage                          Number of Codes

                           5.00–9.99%                                          1
                           10.00–19.99%                                        4
                           20.00–29.99%                                        0
                           30.00–39.99%                                        1
                           40.00–49.99%                                        0
                           50.00–59.99%                                        0
                           60.00–69.99%                                        0
                           70.00–79.99%                                        0
                           80.00–89.99%                                        0
                           90.00–99.99%                                        0
                           100% and above                                      1
                              Total                                            7
                          Source: OIG analysis of second-quarter 2011 ASP and AMP data, 2011.


Of the seven HCPCS codes on which missing AMPs likely had little influence, six met the
5-percent threshold in either two consecutive or three of four quarters. Although CMS’s price
substitution policy will not apply to HCPCS codes with partial AMP data, ASPs for these six
codes repeatedly exceeded the AMPs by at least 5 percent. If reimbursement amounts for the six
codes had been substituted with 103 percent of the AMPs, Medicare expenditures would have
been reduced by an estimated $301,000 during the fourth quarter of 2011. Table 5 presents a list
of the six HCPCS codes and the quarters during which they previously exceeded the 5-percent
threshold.

OEI-03-12-00020       Comparison of Second-Quarter 2011 ASPs and AMPs
Page 12 – Marilyn Tavenner


     Table 5: Six HCPCS Codes With Partial AMP Data in the Second Quarter of 2011
     That Met the 5-Percent Threshold in Two Consecutive or Three of Four Quarters
                                              Previous Comparisons of ASPs and AMPs

                   HCPCS                 Second             First           Fourth            Third
                   Code                  Quarter          Quarter          Quarter          Quarter
                                           2011             2011              2010            2010
                   J7509                        X                X               X
                   Q0165                        X                X               X
                   Q0179                        X                X               X
                   J0290                        X                X
                   J9390                        X                X
                   Q0163                        X                X
                  In all quarters, codes exceeded the 5-percent threshold based on partial AMP data.
                  Source: OIG analysis of ASP and AMP data from the third quarter of 2010 through
                  the second quarter of 2011.


Pricing Comparisons Could Not Be Performed on 49 Drug Codes Because No AMP Data
Were Available
For 49 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP data
for any of the 221 NDCs that CMS used when calculating drug reimbursement amounts for these
codes. In 2010, Medicare allowances for these 49 codes totaled almost $300 million.35

Manufacturers for 8 percent of the NDCs without AMP data (17 of 221) participated in the
Medicaid drug rebate program as of the second quarter of 2011 and were therefore generally
required to submit AMP data for their covered outpatient drugs. 36, 37, 38

Manufacturers for the remaining 204 of 221 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

CONCLUSION

This is OIG’s 25th report comparing ASPs and AMPs, and it examines HCPCS codes with AMP
data for every NDC that CMS used to establish reimbursement amounts, as well as HCPCS
codes with only partial AMP data. To monitor Medicare reimbursement amounts based on ASPs
and consistent with its statutory mandate, OIG compared ASPs and AMPs to identify instances
in which the ASP for a particular drug exceeded the AMP by at least 5 percent.

35
   Of the 49 HCPCS codes with no associated AMP data, 2 were not listed in the 2010 PBAR file. As a result, these
codes were not included in the total Medicare allowances for the year.
36
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted CMS’s
Participating Drug Companies, accessed at http://www.cms.gov on October 11, 2011.
37
   Although manufacturers with rebate agreements are required to submit AMP data for their covered outpatient
drugs, there may be valid reasons why an AMP was not provided for a specific NDC in a given quarter. For
example, a manufacturer may not have been required to submit an AMP if the drug product had been terminated and
there was no drug utilization during the quarter.
38
   These 17 NDCs were crosswalked to 13 HCPCS codes.

OEI-03-12-00020            Comparison of Second-Quarter 2011 ASPs and AMPs
Page 13 – Marilyn Tavenner


In total, we identified 40 HCPCS codes that exceeded the threshold for price adjustment in the
second quarter of 2011. Of these, 26 had complete AMP data (i.e., AMP data for every drug
product that CMS used to establish reimbursement amounts). If reimbursement amounts for all
26 codes had been based on 103 percent of the AMPs in the fourth quarter of 2011, Medicare
would have saved an estimated $15.8 million. Under CMS’s price substitution policy,
reimbursement amounts for 7 of the 26 HCPCS codes would have been lowered to 103 percent
of the AMP, thereby saving Medicare and its beneficiaries $696,000 in that quarter alone. The
remaining 14 HCPCS codes also exceeded the threshold for price adjustment in the second
quarter of 2011 but did so based on partial AMP data. Although CMS’s price substitution policy
will not apply to codes with partial AMP data, price reductions may be legitimately warranted
for half of the 14 codes because missing AMPs likely had little influence on the pricing
comparison results. We could not compare ASPs and AMPs for 49 HCPCS codes because AMP
data were not submitted for any of the NDCs that CMS used to calculate reimbursement.
Manufacturers for 8 percent of these NDCs had Medicaid drug rebate agreements and were
therefore generally required to submit AMPs. OIG will continue to work with CMS to evaluate
and pursue appropriate actions against those manufacturers that fail to submit required data.

Although we do not make recommendations in this report, some of OIG’s previous pricing
comparisons have contained recommendations, which we continue to support. 39 In response to
OIG’s most recent report with recommendations, CMS questioned whether the payoff associated
with price substitution justifies the resources that OIG devotes to quarterly pricing comparisons,
suggesting that OIG limit its efforts to a single annual report. However, because CMS will
apply its price substitution policy on a quarterly basis, OIG’s quarterly pricing comparisons will
be necessary for CMS to make responsive, short-term payment adjustments. Therefore, to
ensure that CMS can make appropriate changes to reimbursement once the price substitution
policy is implemented in 2012, OIG will continue to issue quarterly reports comparing ASPs and
AMPs.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-03-12-00020 in all correspondence.




39
  For example, OIG, Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview of
2007, OEI-03-08-00450, December 2008; OIG, Comparison of Average Sales Prices and Average Manufacturer
Prices: An Overview of 2008, OEI-03-09-00350, February 2010; OIG, Comparison of Average Sales Prices and
Average Manufacturer Prices: An Overview of 2009, OEI-03-10-00380, April 2011; and OIG, Comparison of
Average Sales Prices and Average Manufacturer Prices: An Overview of 2010, OEI-03-11-00410, November 2011.
These reports are available online at https://www.oig.hhs.gov.

OEI-03-12-00020         Comparison of Second-Quarter 2011 ASPs and AMPs
Page 14 – Marilyn Tavenner


APPENDIX A

The Equation Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices on or After April 1, 2008


A volume-weighted average sales price (ASP) is calculated for the dosage amount associated with
the Healthcare Common Procedure Coding System (HCPCS) code. In the following equation, the
“number of billing units” represents the number of HCPCS code doses that are contained in a
national drug code (NDC).



       Volume-Weighted ASP            Sum of (ASP for NDC * Number of NDCs Sold)
        for Dosage Amount  =
          of HCPCS Code        Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




OEI-03-12-00020      Comparison of Second-Quarter 2011 ASPs and AMPs
Page 15 – Marilyn Tavenner


APPENDIX B

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the Second Quarter of 2011

Healthcare Common Procedure Coding System codes with complete average manufacturer price
data. Of the 500 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 382 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 382 HCPCS codes represented
1,868 NDCs. For 22 NDCs, we could not successfully identify the amount of the drug reflected
by the ASP and therefore could not calculate a converted AMP. These 22 NDCs were
crosswalked to 15 HCPCS codes. We did not include these 15 HCPCS codes (205 NDCs) in our
final analysis.

Using the converted AMPs for the remaining 1,663 NDCs, we calculated a volume-weighted
AMP for each of the remaining 367 HCPCS codes consistent with CMS’s methodology for
calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 69 HCPCS codes with AMP data for only
some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
69 HCPCS codes represented a total of 1,047 NDCs. AMP data were either missing or
unavailable for 394 of these NDCs, which were then excluded from our calculation of
volume-weighted AMPs. 40

We calculated converted AMPs for each of the remaining 653 NDCs. For 16 of the
653 NDCs, we could not identify the amount of the drug reflected by the ASP and therefore
could not calculate a converted AMP. We removed these 16 NDCs from our analysis. 41 As a
result, one HCPCS code no longer had any NDCs with AMP data. Therefore, this HCPCS code
was removed from our analysis.

Using the converted AMPs for the remaining 637 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 68 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.




40
   Although AMP data for these 394 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
41
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding HCPCS
codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our analysis of
HCPCS codes with complete AMP data, in which we removed not only the NDCs with problematic AMP
conversions, but also the corresponding HCPCS codes.

OEI-03-12-00020         Comparison of Second-Quarter 2011 ASPs and AMPs
Page 16 – Marilyn Tavenner


HCPCS codes with no AMP data. For 49 HCPCS codes, there were no AMP data for any of the
NDCs that CMS used in its calculation of volume-weighted ASPs. These 49 HCPCS codes
represented 221 NDCs.




OEI-03-12-00020     Comparison of Second-Quarter 2011 ASPs and AMPs
Page 17 – Marilyn Tavenner


APPENDIX C

Twenty-Six Drug Codes With Complete Average Manufacturer Price Data That Exceeded
the 5-Percent Threshold in the Second Quarter of 2011


          Drug
          Code                                                   Short Description         Drug Code Dosage
          A9583                                     Gadofosveset trisodium injection                       1 mL

          J0130                                                  Abciximab injection                      10 mg

          J0470                                                 Dimecaprol injection                    100 mg

          J0713                                                 Ceftazidime injection                   500 mg

          J1070                                     Testosterone cypionate injection                    100 mg

          J1120                                      Acetazolamide sodium injection                     500 mg

          J1205                                      Chlorothiazide sodium injection                    500 mg

          J1240                                             Dimenhydrinate injection                      50 mg

          J1570                                         Ganciclovir sodium injection                    500 mg

          J1644                                             Heparin sodium injection                1,000 units

          J1650                                         Enoxaparin sodium injection                       10 mg

          J2501                                                  Paricalcitol injection                   1 mcg

          J2545                           Pentamidine isethionate inhalation solution                   300 mg

          J2780                                              Ranitidine HCl injection                     25 mg

          J2993                                                  Reteplase injection                    18.1 mg

          J3303                                Triamcinolone hexacetonide injection                        5 mg

          J7507                                                      Tacrolimus, oral                      1 mg

          J7620                  Albuterol and ipratropium bromide, noncompounded                2.5 mg/0.5 mg

          J9065                                                  Cladribine injection                      1 mg

          J9150                                               Daunorubicin injection                      10 mg

          J9171                                                  Docetaxel injection                       1 mg

          J9190                                                 Fluorouracil injection                  500 mg

          J9214                                           Interferon alfa-2b injection            1 million units

          J9218                                          Leuprolide acetate injection                      1 mg

          Q0166                                            Granisetron HCl injection                       1 mg

          Q0169                                              Promethazine HCl, oral                     12.5 mg
         mcg=microgram, mg=milligram, mL=milliliter
         Source: Office of Inspector General analysis of second-quarter 2011 average sales price and average
         manufacturer price data, 2011.




OEI-03-12-00020          Comparison of Second-Quarter 2011 ASPs and AMPs
Page 18 – Marilyn Tavenner


APPENDIX D

Fourteen Drug Codes With Partial Average Manufacturer Price Data That Exceeded the
5-Percent Threshold in the Second Quarter of 2011


          Drug
          Code                                                   Short Description         Drug Code Dosage
          90586                                     Bcg vaccine, for intravesical use                   1 each

          J0171                                      Adrenalin epinephrine injection                    0.1 mg

          J0290                                                   Ampicillin injection                 500 mg

          J1190                                          Dexrazoxane HCl injection                     250 mg

          J2700                                            Oxacillin sodium injection                  250 mg

          J7509                                            Methylprednisolone, oral                       4 mg

          J7608                  Acetylcysteine inhalation solution, noncompounded                          1g

          J9031                                         Bcg live intravesical vaccine                   1 each

          J9390                                         Vinorelbine tartrate injection                   10 mg

          Q0163                                      Diphenhydramine HCl injection                       50 mg

          Q0165                                      Prochlorperazine maleate, oral                      10 mg

          Q0179                                               Ondansetron HCl, oral                       8 mg

          Q9965               Low osmolar contrast material, 100–199 mg/mL iodine                         1 mL

          Q9966               Low osmolar contrast material, 200–299 mg/mL iodine                         1 mL

         mg=milligram, mL=milliliter, g=gram
         Source: Office of Inspector General analysis of second-quarter 2011 average sales price and average manufacturer
         price data, 2011.




OEI-03-12-00020          Comparison of Second-Quarter 2011 ASPs and AMPs
